No. 20-1002

In the Supreme Court of the United States
CODY WILLIAM COX,
Petitioner,
v.
DON WILSON,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Tenth Circuit
REPLY BRIEF FOR PETITIONER
JAMES F. SCHERER
Miller & Law, P.C.
1900 W. Littleton Blvd.
Littleton, CO 80111
(303) 722-6500
EUGENE R. FIDELL
Yale Law School Supreme
Court Clinic
127 Wall Street
New Haven, CT 06511
(202) 432-4992

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for Petitioner

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES....................................... ii
A. The decision below rests on the panel’s
“relative perceived egregiousness” test—
not this Court’s clearly established law
standard. ................................................................2
B. The lower courts are in conflict. ............................7
C. The qualified immunity question is
squarely presented. .............................................. 10
D. This Court’s decision in Taylor v. Riojas
provides additional support for plenary
review or a remand for reconsideration. ............. 11
APPENDIX A ............................................................ 1a
APPENDIX B .......................................................... 21a

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Brosseau v. Haugen,
543 U.S. 194 (2004) ................................................ 4
Cordova v. Aragon,
569 F.3d 1183 (10th Cir. 2009) .......................... 4, 6
Farrell v. Klien Tools, Inc.,
866 F.2d 1294 (10th Cir. 1989) .............................. 7
Hope v. Pelzer,
536 U.S. 730 (2002) .................................. 5, 6, 7, 12
Kisela v. Hughes,
138 S. Ct. 1148 (2018) ............................................ 5
Kneipp v. Tedder,
95 F.3d 1199 (3d Cir. 1996) ................................... 9
L.R. v. Sch. Dist. of Philadelphia,
836 F.3d 235 (3d Cir. 2016) ............................... 5, 9
Limone v. Condon,
372 F.3d 39 (1st Cir. 2004) .................................... 5
Lytle v. Bexar County,
560 F.3d 404 (5th Cir. 2009) .................................. 9
Morrow v. Meachum,
917 F.3d 870 (5th Cir. 2019) ........................ 8, 9, 10
Mullenix v. Luna,
577 U.S. 7 (2015) (per curiam) .............................. 4

iii
TABLE OF AUTHORITIES—continued
Page(s)
Pauly v. White,
874 F.3d 1197 (10th Cir. 2017) ...................... 1, 2, 3
Phillips v. Community Insurance,
678 F.3d 513 (7th Cir. 2012) ........................ 5, 9, 10
Sevier v. City of Lawrence,
60 F. 3d 695 (10th Cir. 1995) ............................... 11
Taylor v. Riojas,
141 S. Ct. 52 (2020) ................................ 1, 2, 11, 12
Zia Trust Co. v. Montoya,
597 F.3d 1150 (10th Cir. 2010) .......................... 6, 7
STATUTES, RULES AND REGULATIONS
42 U.S.C. § 1983 ........................................................ 12

Respondent is correct that we mistakenly included in the petition appendix the earlier version of
the panel’s opinion. We apologize for that error. The
appendix to this brief includes the panel’s final opinion (Appendix A) and a comparison (Appendix B)
showing the two changes between the initial and final
opinions. See App., infra, 36a, 38a. As the panel itself
noted, the final opinion “contain[ed] only non-substantive changes.” Pet. App. 22a.1
Respondent’s substantive arguments only confirm
the need for this Court’s intervention. The panel’s denial of qualified immunity rested on its application of
the wrong legal standard: rather than determining
whether prior decisions provided Officer Wilson with
“fair warning” that his actions here violated the Constitution, “the panel satisfie[d] itself with comparing
the relative perceived egregiousness of police conduct
in factually dissimilar cases.” Pet. App. 26a (en banc
dissent). If the panel had faithfully applied this
Court’s precedents, it would have denied qualified immunity.
Respondent does not seriously dispute the existing
conflict among the lower courts regarding the application of this Court’s qualified immunity standard—
regarding how much factual similarity is required
between prior decisions and the case in which immunity is claimed. The Court should grant review to
resolve that conflict, which the panel’s decision deepens. Alternatively, the Court should grant the petition and remand this case for reconsideration in light
of its intervening decision in Taylor v. Riojas, 141 S.
Respondent is wrong in asserting (Opp. 20 n.10) that the panel’s
revision of its opinion altered its qualified immunity analysis to
reduce reliance on Pauly v. White, 874 F.3d 1197 (10th Cir. 2017).
There was no substantive change. See App., infra, 36a, 38a.
1

2
Ct. 52 (2020). That will make clear to lower courts
that Taylor provides general guidance on application
of the qualified immunity standard.
Finally, respondent does not dispute that the
panel’s jury instruction decision rested entirely on its
qualified immunity determination—the qualified immunity issue is therefore squarely presented here.
The shooting in this case rendered petitioner Cody
Cox a quadriplegic. His opportunity to prove his claim
was obstructed by an improper qualified immunity decision that exemplifies lower court confusion. Review
is plainly warranted.
A. The decision below rests on the panel’s
“relative perceived egregiousness” test—
not this Court’s clearly established law
standard.
The petition explains (at 15-17) that the panel
failed to apply this Court’s clearly established law
standard. Instead, the Tenth Circuit upheld the qualified immunity claim because it had found qualified
immunity appropriate in Pauly v. White, supra, and
“[u]nlike [respondent] Wilson’s” actions, “the impropriety of” the officers’ actions in that case “would be
apparent to most laypersons.” App., infra, 18a. The
panel thus rested its decision on “the relative perceived egregiousness of police conduct in factually dissimilar cases.” Pet. App. 26a (en banc dissent).
Respondent—pointing to two sentences in the
panel’s lengthy discussion of qualified immunity—
claims that the panel decided the case by applying the
proper standard. Opp. 17-20. Respondent is wrong.
The approach the panel adopted bears no relationship

3
to the clearly established law standard that this Court
has specified for qualified-immunity cases.
The panel did state that petitioner “has not presented, nor are we aware of” an opinion “holding that
an officer in similar circumstances acted unreasonably” and that respondent was “protected by qualified
immunity.” App., infra, 16a. But it is clear that the
opinion does not rest on that ground.
First, the two sentences relied on by respondent
are followed by multiple paragraphs discussing the
Pauly precedent—culminating in its conclusion:
Unlike Wilson’s decision to leave his vehicle to
try to disable Cox’s vehicle, the impropriety of
the alleged actions by the officers before the
shooting in Pauly would be apparent to most
laypersons. Yet the Pauly officers were protected by qualified immunity because of the
absence of clearly established law prohibiting
their conduct. So too, here.
App., infra, 18a (emphasis added).
Thus, it was only after its extended discussion of
Pauly that the panel held that Wilson was entitled to
qualified immunity. The en banc dissenters were
clearly correct in concluding that “the panel relie[d]
only on the facts of Pauly, a case that did not involve
a car chase, vehicular pursuit, or any facts remotely
similar to the facts of the instant case.” Pet. App. 26a.
Second, it is not surprising that the panel did not
rest its decision on its statement that there were no
prior decisions “holding that an officer in similar circumstances acted unreasonably,” App., infra, 16a—
because the record in this case referenced decisions

4
involving similar factual circumstances. As the petition explains (at 6-8, 18), the district court relied on
just such a factually similar ruling to deny qualified
immunity: Cordova v. Aragon, 569 F.3d 1183 (10th
Cir. 2009).
Third, Officer Wilson tries to justify the panel’s rationale by arguing that this Court took a similar approach in Mullenix v. Luna, 577 U.S. 7 (2015) (per curiam). See Opp. 20-22.
But Mullenix is totally inapposite. There, this
Court reversed the lower court’s denial of qualified immunity because it failed to conduct the fact-based inquiry required by the Court’s precedents and denied
immunity based only on “the general principle that
deadly force requires a sufficient threat.” 577 U.S. at
14.
The Court discussed Brosseau v. Haugen, 543 U.S.
194 (2004), as a factually similar case in which qualified immunity was denied (both cases “involved the
shooting of a suspect fleeing by car,” 577 U.S. at 12) to
show that the officer in Mullenix was not placed on
notice that his behavior was unconstitutional. The
Court did not reference the case—as respondents argue (Opp. 14)—as “an illustrative example” of the
strength of qualified immunity.
Thus, this Court in Mullenix did precisely what the
Tenth Circuit failed to do here: it rested its decision in
favor of qualified immunity on the conclusion that factually-similar cases did not provide the officer with
the necessary fair notice. See 577 U.S. at 14-15.
Fourth, a proper application of this Court’s precedents required the denial of qualified immunity here.

5
The “salient question” under this Court’s qualified immunity precedents “is whether the state of the law
* * * [gives a government official] fair warning that
their alleged [conduct] * * * was unconstitutional.”
Hope v. Pelzer, 536 U.S. 730, 741 (2002). And the
Court has rejected the requirement that “the facts of
[these] cases be ‘materially similar’” to those at issue
in order to deny qualified immunity. Id. at 739 (citation omitted).
Officer Wilson asserts that Hope’s statement of the
qualified immunity standard applies only “in the narrow circumstance where the unlawfulness or unconstitutionality of the conduct would be obvious to any
public official even without existing precedent.” Opp.
23-24. In other words, it encompasses only government conduct that is so outrageous that an official
would know it violated the Constitution even if there
were no judicial decisions delineating the scope of the
particular constitutional right.
But nothing in Hope indicates that the Court was
crafting a standard with such limited applicability.
Rather, it was articulating the general test for qualified immunity, which lower courts regularly apply
outside of obviously unconstitutional conduct. See,
e.g., L.R. v. Sch. Dist. of Philadelphia, 836 F.3d 235,
248 n.64 (3d Cir. 2016); Limone v. Condon, 372 F.3d
39, 48 (1st Cir. 2004); Phillips v. Community Insurance, 678 F.3d 513, 528 (7th Cir. 2012).
Officer Wilson argues (Opp. 24) that Kisela v.
Hughes, 138 S. Ct. 1148 (2018) (per curiam) narrowed
Hope. But the Court there reiterated that “‘general
statements of the law are not inherently incapable of
giving fair and clear warning to officers,” and that

6
qualified immunity is not available when “‘the right’s
contours were sufficiently definite that any reasonable official in the defendant’s shoes would have understood that he was violating it.’” Id. at 1153 (citations
omitted). That is the same test that this Court applied
in Hope.
The Tenth Circuit would have had no choice but to
deny qualified immunity if it applied the test articulated in Hope and elsewhere. We explained in the petition (at 17-20), that two Tenth Circuit decisions—
Cordova v. Aragon, 569 F.3d 1183 (10th Cir. 2009) and
Zia Trust Co. v. Montoya, 597 F.3d 1150 (10th Cir.
2010)—placed Officer Wilson on notice that his conduct violated clearly established law.
Officer Wilson argues that the cases “involve very
different facts” from those here, and moreover, “did
not resolve the issue here.” Opp. 27-28. He is wrong.
The Tenth Circuit held in Cordova that “a distant
risk to hypothetical motorists posed by a suspect’s
reckless driving does not alone justify shooting that
suspect,” and that “the threat to [the public] has to be
real and concrete” in order to justify a shooting. 569
F.3d at 1195.
And in Zia Trust, the Tenth Circuit ruled that the
officer “violated clearly established law when he used
* * * force against [the suspect]” because the officer
“did not have probable cause to believe that there was
a serious threat of serious physical harm to himself or
others.” 597 F.3d at 1155 (citations and quotation
marks omitted).
Here, the suspect’s vehicle was immobilized and
there was no threat to the public. Both Cordova and

7
Zia Trust therefore make clear that the shooting violated the Constitution.2
*

*

*

*

*

If the panel had applied the proper standard, it
would have held that Officer Wilson was not entitled
to qualified immunity. The only way it could justify a
contrary conclusion was to apply the illegitimate “relative perceived egregiousness” standard.
B. The lower courts are in conflict.
Respondent does not seriously dispute the petition’s description of the conflict among the lower
courts. He offers only a wholly unsupported assertion
that the petition’s discussion of the conflict rests on
“cherry-pick[ed]” quotations. Opp. 26 n.13. Not so. The
conflict is clear and continuing. See Pet. 20-27.3

Officer Wilson argues that the vehicle was not immobilized and
contends that the facts should not be construed in the light most
favorable to petitioner. Opp. 6 nn. 2 & 4. But the question here
is whether the jury instruction was properly refused because of
qualified immunity, and Tenth Circuit precedent makes clear
that a party is entitled to an instruction if they provide “more
than a mere scintilla of evidence to support an instruction.” Farrell v. Klien Tools, Inc., 866 F.2d 1294, 1297 (10th Cir. 1989). The
underlying facts therefore must be evaluated under that standard.
2

Indeed, Officer Wilson’s arguments themselves provide an additional reason for the Court to grant review—his contention
that Hope sets forth a special standard limited to outrageous government conduct, a contention that is undermined by the decisions of several courts of appeals. See page 5, supra.
3

8
Thus, the Fifth Circuit in Morrow v. Meachum, 917
F.3d 870 (5th Cir. 2019), laid out four hurdles that
courts must overcome to deny qualified immunity:
•

While the Fifth Circuit acknowledged the concept of “fair notice,” id. at 875, it repeatedly
emphasized that such notice is only present
when courts have previously found the “particular” conduct unlawful. Ibid.

•

Courts must find that the established right is
entrenched “beyond debate” and drawn “from
holdings, not dicta.” Id. at 875-876.

•

For excessive force cases, courts must clear an
even higher bar. Only precedent that
“squarely governs the specific facts at issue”
can clearly establish a constitutional right.
Ibid. (internal quotation marks and citation
omitted). “[E]very reasonable officer” acting
“in the blink of an eye” must know it. Ibid. (citation omitted).

•

Lower courts should “think twice before denying qualified immunity” to anyone “but the
plainly incompetent or those who knowingly
violate the law.” Ibid. (internal quotation
marks and citation omitted).

Following this exacting approach, the Fifth Circuit
extended qualified immunity to an officer who used a
“rolling block” to stop a motorcyclist, killing him. Morrow, 917 F.3d at 872-874. The court explained that the
plaintiffs had not pointed to controlling precedent
with sufficiently similar facts establishing the unreasonableness of police using deadly force to stop a highspeed chase. Id. at 876-877. It rejected several proffered precedents for imprecise factual fit, including

9
circuit precedent involving an officer who used a gun
to stop a high-speed chase because the officer in the
case at hand did not use a gun. Id. at 878-879 (distinguishing Lytle v. Bexar County, 560 F.3d 404 (5th Cir.
2009)).
If other circuits applied the Fifth Circuit’s approach, many of their qualified immunity cases would
have turned out differently—as the petition explains.
We focus on two examples.
In L.R. v. School District of Philadelphia, 836 F.3d
235 (3d Cir. 2016), the Third Circuit denied qualified
immunity to a school official who entrusted a young
student to a stranger, who subsequently sexually
abused her. The court rested its decision on Kneipp v.
Tedder, 95 F.3d 1199 (3d Cir. 1996), a case in which
police abandoned a seriously intoxicated woman to
find her way home in the cold, leading her to suffer
prolonged exposure resulting in brain damage—notwithstanding the different factual contexts. L.R., 836
F.3d at 244. A court following Morrow could not have
reached the same result.
Similarly, Morrow conflicts with the Seventh’s Circuit’s qualified immunity decision in Phillips v. Commuity Insurance, supra. There, the court denied qualified immunity to officers who repeatedly shot an unresponsive and unthreatening suspect with rubber
bullets. 687 F.3d at 516-517. The court held that
“[e]ven where there are ‘notable factual distinctions,’
prior cases may give an officer reasonable warning
that his conduct is unlawful.” Id. at 528 (citation omitted).

10
The Phillips court compared the facts before it to
three prior decisions involving injuries inflicted by the
police while subduing non-threatening suspects. 678
F.3d at 529. Those cases differed from the facts at
hand in several crucial respects, including the fact
that the plaintiff in Phillips was drunk, deliberately
ignoring police orders, and not in police custody—but
the court nonetheless denied immunity. If the court
had applied the Morrow standard, it would have had
no choice but to find that none of these precedents
“squarely governed” the case at hand and would have
reached the opposite conclusion on qualified immunity.
The decision below adds to this confusion—and
only this Court’s intervention can provide the clarity
needed for uniform resolution by the lower courts of
this frequently-recurring issue.
C. The qualified immunity question
squarely presented.

is

The petition explains (at 29-30) that the qualified
immunity issue is squarely presented, because the
panel affirmed the denial of the jury instruction solely
on the basis that Officer Wilson was entitled to immunity.
Officer Wilson does not dispute that conclusion.
He states only that the qualified immunity issue
“comes in [a] novel and layered form.” Opp. 36.
That is true, but irrelevant. Because the court of
appeals’ judgment rests entirely on the qualified immunity determination, this Court can address that issue and then remand the case for further proceedings
consistent with its determination. Then, the Tenth
Circuit on remand can apply ordinarily-applicable

11
principles to determine whether denial of the jury instruction was error.
Respondent is also wrong in asserting (Opp. 3637) that this Court would be obligated to address the
substantive issue underlying the jury instruction
question—whether an officer’s conduct prior to use of
force is relevant in determining whether that use of
force is excessive. If this Court determines that the
qualified immunity decision was flawed, the case
would be remanded. The Tenth Circuit’s precedent
would then control, which holds that a jury may consider an officer’s own reckless conduct in creating the
need to use force, for purposes of Fourth Amendment
reasonableness inquiry. Sevier v. City of Lawrence, 60
F. 3d 695, 699 (10th Cir. 1995).
To the extent respondent wishes to dispute that
precedent, he would be able to seek review, based on
his theory that the officer’s conduct prior to the use of
force should not be considered, after the court of appeals reverses the district court’s judgment. But the
issue simply is not presented by the panel’s decision.
In sum, this case presents an appropriate vehicle
for providing much-needed guidance on the level of
factual similarity required by the “clearly established”
standard.
D. This Court’s decision in Taylor v. Riojas
provides additional support for plenary
review or a remand for reconsideration.
The petition explains (at 29) that this Court’s decision in Taylor v. Riojas, supra—rendered after the
panel decision and en banc dissent in this case—provides additional justification for this Court’s intervention. To the extent Taylor clarifies the clearly established law standard, it would be appropriate to grant

12
the petition and remand the case for reconsideration
by the Tenth Circuit in light of Taylor. To the extent
Taylor does not provide such clarification, plenary review is warranted.
Respondent asserts (Opp. 26) that Taylor confirms his view that the Court, in Hope and now in Taylor, has crafted a separate standard that denies qualified immunity for “obviously unconstitutional” conduct. See also page 5, supra. But nothing in Taylor
supports that conclusion. Rather, Taylor applied
Hope’s holding that “‘a general constitutional rule already identified in the decisional law may apply with
obvious clarity to the specific conduct in question.’”
141 S. Ct. at 53-54. In other words, Taylor concluded
that a prior decision may provide sufficient clarity to
preclude qualified immunity in circumstances beyond
the particular factual context addressed in that decision.
To the extent this Court agrees that Taylor provides additional guidance on applying the clearly established law standard, the Court should remand for
further consideration in light of Taylor.4
For the foregoing reasons, and those stated in the
petition, the Court should grant plenary review or
grant the petition and remand for reconsideration in
light of Taylor.

Amicus Constitutional Accountability Center urges the Court
to grant review in this case to reform the qualified immunity doctrine. The amicus brief cogently explains that the current qualified immunity doctrine is inconsistent with the text and history
of 42 U.S.C. § 1983. If the Court is inclined to grant plenary review, petitioner supports the addition of the issues identified in
the amicus brief.
4

13
Respectfully submitted.
JAMES F. SCHERER
Miller & Law, P.C.
1900 W. Littleton Blvd.
Littleton, CO 80111
(303) 722-6500

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
EUGENE R. FIDELL
Yale Law School Supreme (202) 263-3000
apincus@mayerbrown.com
Court Clinic
127 Wall Street
New Haven, CT 06511
(202) 432-4992
Counsel for Petitioner
APRIL 2021

APPENDICES

1a

APPENDIX A
United States Court of Appeals
for the Tenth Circuit
Cody William Cox,
Plaintiff-Appellant-Cross-Appellee,
v.
Don Wilson,
Defendant-Appellee-Cross-Appellant.
Nos. 18-1353, 18-1376
(Filed August 19, 2020, nunc pro tunc May 22, 2020)
Appeal from the United States District Court
for the District of Colorado (D.C. No. 1:15-CV00128-WJM-NYW)
Before Hartz and Eid, Circuit Judges**
Hartz, Circuit Judge.
Plaintiff Cody Cox sued Defendant Don Wilson, a
deputy in the Clear Creek County Sheriff’s Department, under 42 U.S.C. § 1983. Cox alleged that when
* The late Honorable Monroe G. McKay, United States Senior
Circuit Judge, heard oral argument and participated in the
panel’s conference of this appeal, but passed away before its final
resolution. The practice of this court permits the remaining two
panel judges, if in agreement, to act as a quorum in resolving the
appeal. See United States v. Wiles, 106 F.3d 1516, 1516, n* (10th
Cir. 1997); 28 U.S.C. § 46(d).

2a
Wilson shot him in his vehicle while stopped on Interstate 70, Wilson violated the constitutional prohibition against the use of excessive force by law-enforcement officers. Plaintiff appeals the judgment on the
jury verdict against him. He argues that the district
court erred in failing to instruct the jury to consider
whether Wilson unreasonably created the need for the
use of force by his own reckless conduct. We have jurisdiction under 28 U.S.C. § 1291 and affirm. Although the district court incorrectly stated that the Supreme Court had recently abrogated this court’s precedents requiring such an instruction in appropriate
circumstances, the evidence in this case did not support the instruction. No law, certainly no law clearly
established at the time of the incident, suggests that
Wilson acted unreasonably up to and including the
time that he exited his vehicle and approached Cox’s
vehicle.
I.

Background
A. The Shooting

Cox was shot on January 31, 2014, after a car
chase on Interstate 70. It had been snowing so the Interstate was wet, and some parts were snow-packed
or icy. The first officer to pursue Cox was Clear Creek
County Deputy Sheriff Kevin Klaus. Although Klaus
testified about his observations during the pursuit,
the only evidence relevant to the propriety of Wilson’s
actions is what Wilson observed or what he was informed of by others. Therefore, our account of what
happened before Wilson joined the pursuit is limited
to what was broadcast on police radio channels that
Wilson heard.
The radio traffic indicated a dangerous situation.
It began as Cox’s Toyota pickup passed Exit 235 on
the interstate. The dispatcher said, “[W]e’ve got about

3a
three 9-11 calls.” Aplt. App., Vol. VII at 1566. An officer reported that Cox had “I-70 pretty-well blocked
up behind him and he’s having a hard time getting up
the road.” Id. at 1567. The officer described the vehicle
as a “Silver Tacoma with damage all over the body and
a camper shell on the back.” Id. Klaus reported that
at about mileage marker 232½, Cox “just wiped out in
the, uh, number one lane. He’s – was all over the
road.” Id. at 1568. Klaus also noted that his police vehicle did not have a siren. Id. Klaus then reported that
near Exit 232 the pickup “got stuck, but he’s trying to
get away again. I’m not going to contact until I get
some cover.” Id. at 1569. He said: “I verbally told the
party to turn off his car. I do have a good look of – at
him, and he’s taking off again. Westbound. All over
the road.” Id. An officer reported that traffic was “almost at a standstill” about 4 miles ahead. Id. Klaus
said he needed help from someone with a siren and
reported that there was “nobody in front of this guy,
but we have a lot behind me.” Id. After the other officer reported that he was at Exit 228, Klaus responded, “Uh, the way he’s driving, I doubt we’ll make
it that far.” Id. Another officer stated that he had
“spike strips” (also referred to by officers as stop
sticks) and would join the two police vehicles already
at Exit 228. Id. at 1570. Klaus then reported that Cox
was driving 60 miles per hour, then 70, and then 80
at mileage marker 230½.
After an officer reported that westbound traffic
was stopped about a mile and a half ahead, Klaus
said, “[W]e just caught up with this traffic. He is not
going to stop.” Id. Klaus continued, “[W]e’re going to
have to, uh, take some physical action on this vehicle.
This guy has got to be very drunk, and he is not stopping.” Id. at 1571. Shortly after that, Klaus reported,
“We’re in bumper-to-bumper traffic now at the 229½.

4a
He is not stopping. He’s just showing me a peace sign.”
Id. Another officer informed the others that he was at
the 228 offramp with spike strips.
About that time, Wilson, whose vehicle had a siren, had caught up with Cox and taken over from
Klaus as leader of the pursuit. For the next mile, traffic became heavily congested, moving slowly in a stopand-go fashion. The pursuit proceeded at speeds between 5 and 15 miles per hour. Wilson observed Cox
continue to drive dangerously. Each time Cox was momentarily stopped by the traffic, he would wait for an
opening and then accelerate through any gaps in the
cars, losing traction and fishtailing wildly nearly a
dozen times and coming very close to striking nearby
vehicles. He refused to pull over in response to Wilson’s lights and sirens or Wilson’s repeated orders
over his loudspeaker that Cox stop his vehicle. Wilson
believed that Cox was not going to stop.
Wilson was able to pull along the right side of
Cox’s vehicle, which was in the lefthand lane about
five feet from the guardrail, while traffic continued to
move very slowly in a stop-and-go fashion. Wilson had
his window down and motioned for Cox to roll down
his window, which Cox did. But Cox continued to ignore Wilson’s repeated orders to turn off his engine.
On several occasions Wilson observed Cox drop his
right hand down to his right hip; given the circumstances, Wilson assumed that Cox was reaching for a
firearm. Cox kept driving forward when possible, rolling up a few feet each time the traffic moved forward.
Wilson believed that Cox was striking the rear
bumper of the car in front of him, driven by Sarah Kincaid, and pushing her car forward each time that he
pulled ahead. But Wilson testified that he was mistaken on this point; he said that his perceptions at

5a
that moment were impaired because he was concentrating on giving Cox instructions and determining
whether Cox had a weapon.
Finally, Kincaid fully stopped her car, requiring
Cox to stop. Kincaid stopped because she thought that
Wilson wanted her to do so. But Wilson and Kincaid
had not communicated at any point and Kincaid kept
the engine running; so Wilson had no way of knowing
that Kincaid was intentionally blocking Cox and
would continue to do so even as traffic moved forward
in front of her.
Klaus stopped his vehicle about 10 feet behind
Cox. By this point Wilson had drawn his firearm and
pointed it at Cox, again ordering Cox to turn off his
engine. While Cox was boxed in, Wilson believed he
had a brief window of time to get inside Cox’s car and
take the keys out of the ignition. He decided that
prompt action was necessary because he believed that
the next stretch of highway posed increasing dangers
for the chase (for example, there was a crossover area
a mile ahead where Cox could have driven into oncoming traffic), and that Cox could, in the slow-moving
traffic, avoid the stop sticks that police had laid out at
the next exit. Based on the radio transmissions, Wilson thought that officers providing support for the
chase about a half mile to a mile down the road were
not coming to assist him.
Wilson said that when he exited his vehicle, it was
a car length ahead of Cox in the lane to the right. With
his firearm drawn he moved toward Cox, again telling
Cox to turn off his engine. Almost immediately, he
shot Cox through the open passenger window, striking Cox in the neck. The shooting incident, from the
time Cox’s vehicle came to a complete stop to the time

6a
that Wilson shot Cox, probably took about a minute.1
The shot to the neck rendered Cox quadriplegic.
There was no dispute at trial regarding Wilson’s
knowledge of the police radio traffic before he took
over the lead of the pursuit; nor was there any dispute
regarding the stop-and-go nature of the traffic once he
took the lead, Cox’s dangerous driving, or Cox’s refusal to comply with Wilson’s repeated orders for Cox
to turn off his engine. But the eyewitness trial testimony about the moments immediately preceding the
shooting was not entirely consistent. Wilson claimed
that before he stepped from his vehicle onto the highway, he witnessed Cox roll his car forward and backward twice. When he stepped onto the highway, Cox
had backed up to a point completely behind his patrol
car. He said that he shot Cox because Cox attempted
to drive forward and to the right, toward his patrol
car, in a manner that caused him to believe that he
was going to be crushed and perhaps killed between
the two vehicles. Klaus, however, testified that Wilson
stopped his patrol car right next to Cox’s car, and that
Cox moved his car only once (a foot backward and then
a foot forward) after coming to a complete stop behind
Kincaid. Kincaid testified that Wilson had not fully
exited his vehicle when he shot Cox, and Cox had not

1

The duration of the incident, from the time that Cox’s car came
to a complete stop to the time of the shooting, is somewhat uncertain. Klaus testified that he watched Cox’s stopped car for less
than a minute before exiting his car, and that Wilson shot Cox
about four seconds later. Wilson testified based on the radio
transmissions that the incident took about one minute and 15
seconds. Kincaid testified that the incident took “seven and a half
minutes,” Aplt. App., Vol. I at 181, but admitted that her perception was affected by the stress of the moment.

7a
moved his vehicle after stopping behind Kincaid with
Wilson to his right.
Cox testified that he had no memory of the car
chase or the shooting incident except that he recalled
a silhouette of a person who came up to his window
while he was stopped in traffic, he heard some words,
and he hit the vehicle in front of him before losing consciousness.
B. Procedural History
Cox filed suit in the United States District Court
for the District of Colorado asserting a single claim
under 42 U.S.C. § 1983: namely, that his shooting constituted the use of excessive force in violation of the
Fourth Amendment’s protection against unreasonable seizure. Wilson asserted the defense of qualified
immunity.
There have been two jury trials on Cox’s claim.
The first jury returned a verdict in favor of Wilson, but
the district court vacated the judgment because of
misconduct at trial by defense counsel (who has since
been replaced) and ordered a new trial. After Cox
rested his case in the second trial, Wilson moved under Fed. R. Civ. P. Rule 50(a) for a judgment as a matter of law on his qualified-immunity defense. He renewed this motion at the close of evidence, but the
court denied the motion. The second jury also rendered a verdict in favor of Wilson.
Cox raises only one issue on appeal. He contends
that the district court improperly failed to instruct the
jury that it could consider Wilson’s reckless conduct
before the shooting in determining whether the shooting violated the Fourth Amendment. In his response
to Cox’s appeal and in support of his own cross-appeal,

8a
Wilson argues that the district court committed several errors during the trial. But because we affirm the
judgment in Wilson’s favor, we need not address those
matters.
II.

Discussion

In an excessive-force case, as in other Fourth
Amendment seizure cases, a plaintiff must prove that
the officer’s actions were “objectively unreasonable,”
taking into account the “totality of the circumstances.”
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255, 1259–60 (10th Cir. 2008) (internal quotation
marks omitted). Cox argues that the district court
erred in failing to instruct the jury that in determining the reasonableness of Wilson’s use of force, it could
consider whether Wilson’s own reckless conduct unreasonably created the need to use such force.
According to Cox, the district court’s mistake was
in changing the unreasonable-force jury instruction
from what the court had used at the first trial. The
court’s instructions were almost identical to those it
had previously given regarding what Cox needed to
prove to establish his claim against Wilson. In both
trials the court told the juries that the burden was on
Cox “to establish by a preponderance of the evidence
each of the following elements” of his excessive-force
claim: “First: [Wilson] deprived [Cox] of his federal
Constitutional right not to be subjected to unreasonable force while being stopped; Second: [Wilson] acted
under the color of state law; and Third: [Wilson’s] acts
were the proximate cause of damages sustained by
[Cox].” Aplt. App., Vol. VII at 1595. The court then instructed the juries on the “Factors To Consider When
Determining Whether Plaintiff Has Proven The Elements Of His Claim.” Id. at 1596. It told the juries
that they could consider whether Cox had proved at

9a
least one of the following (each of 9 which would have
sufficed to establish a violation of his Fourth Amendment rights): (1) “that deadly force was not necessary
to prevent [Cox] from escaping”; (2) “that [Wilson] did
not have probable cause to believe that [Cox] posed a
significant threat of serious physical injury to [Wilson] or others”; or (3) “that it would have been feasible
for [Wilson] to give [Cox] a warning before using
deadly force, but [Wilson] did not do so.” Id. at 1596–
97. And the court told the juries that they should “consider all the relevant facts and circumstances [Wilson]
reasonably believed to be true at the time of the encounter,” and that the inquiry “is always whether,
from the perspective of a reasonable officer on the
scene, the totality of the circumstances justified the
use of force at the time of the seizure.” Id. at 1597.
But the court did make one change to the factorsto-consider instruction given at the first trial, and that
is the basis of Cox’s appeal. The second-trial instruction excluded one sentence regarding the jury’s reasonableness inquiry. We set forth in regular type the
pertinent paragraph from the instructions at the second trial, and italicize the sentence that was included
at the first trial but not at the second:
The reasonableness of Defendant’s acts must
be judged from the perspective of a reasonable
officer on the scene at the time of the seizure,
that is, the shooting. One of the factors you
should consider is whether Defendant Don
Wilson was in danger at the time that he used
force. Defendant Don Wilson’s own conduct
prior to the shooting can be a part of your determination of reasonableness, but only if his
own reckless or deliberate conduct during the
seizure unreasonably created the need to use

10a
such force. The concept of reasonableness
makes allowance for the fact that police officers are often forced to make split-second judgments in circumstances that are sometimes
tense, uncertain, and rapidly evolving, about
the amount of force that is necessary in a particular situation.
Aplt. App., Vol. I at 57 (italics), VII at 1597 (regular type). Cox objected to the instruction but was overruled. The court explained that it thought the deleted
language was legally incorrect and that Cox’s contention that Wilson’s conduct before the shooting was
reckless was unlikely to overcome qualified immunity.
See Aplt. App., Vol. VII at 1436 (“It’s my view that
some subsequent decisions since the first trial call[]
into question the continuing viability of that statement and that would be, in my view, the thinnest
grounds that the plaintiff would have on the qualified
immunity issue.”).
We ordinarily review a lower court’s refusal to
give a particular instruction for abuse of discretion.
See Morrison Knudsen Corp. v. Fireman’s Fund Ins.
Co., 175 F.3d 1221, 1231 (10th Cir. 1999). “That deferential review is superseded, however, by this court’s
de novo review of the instructions given to determine
whether, in the absence of the refused instruction,
they misstated the applicable law.” Id.; see Burke v.
Regalado, 935 F.3d 960, 1009 (10th Cir. 2019) (“We
review de novo whether, as a whole, the district
court’s jury instructions correctly stated the governing law and provided the jury with an ample understanding of the issues and applicable standards.” (internal quotation marks omitted)). Wilson argues that
we should review the denial of the requested instruction for abuse of discretion, while Cox argues that our

11a
review is de novo. But we need not resolve that dispute because on de novo review we hold that the instruction would have been improper in light of the evidence.
There is some Supreme Court authority supporting the district court’s view of the law. In City &
County of San Francisco, California v. Sheehan, the
Court stated that a plaintiff could not “establish a
Fourth Amendment violation based merely on bad
tactics that result[ed] in a deadly confrontation that
could have been avoided.” 135 S. Ct. 1765, 1777 (2015)
(internal quotation marks omitted). “[S]o long as a
reasonable officer could have believed that his conduct
was justified, a plaintiff cannot avoid summary judgment by simply producing an expert’s report that an
officer’s conduct leading up to a deadly confrontation
was imprudent, inappropriate, or even reckless.” Id.
(original brackets and internal quotation marks omitted).
Two years later, County of Los Angeles, California
v. Mendez rejected the Ninth Circuit’s “provocation”
rule, which had “permit[ted] an excessive force claim
under the Fourth Amendment where an officer intentionally or recklessly provokes a violent confrontation,
if the provocation is an independent Fourth Amendment violation.” 137 S. Ct. 1539, 1546 (2017) (internal
quotation marks omitted). “The rule’s fundamental
flaw,” as the unanimous Court explained, was that it
“use[d] another constitutional violation to manufacture an excessive force claim where one would not otherwise exist.” Id. The rule went beyond the “operative
question in excessive force cases,”—“whether the totality of the circumstances justifie[d] a particular sort
of search or seizure,” id. (internal quotation marks
omitted)—and instead “instruct[ed] courts to look

12a
back in time to see if there was a different Fourth
Amendment violation that [was] somehow tied to the
eventual use of force,” id. at 1547.
But Mendez made clear that it was not deciding
the validity of the proposition of law stated in the sentence omitted from the instruction by the district
court in this case. A footnote to the opinion states that
the Court was declining to address the view that assessing the reasonableness of the use of force requires
“taking into account unreasonable police conduct
prior to the use of force that foreseeably created the
need to use it.” Id. at 1547 n*. And after both Sheehan
and Mendez we held in Pauly v. White that “[t]he reasonableness of the use of force depends not only on
whether the officers were in danger at the precise moment that they used force, but also on whether the officers’ own reckless or deliberate conduct during the
seizure unreasonably created the need to use such
force.” 874 F.3d 1197, 1219 (10th Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018) (internal quotation marks
omitted); see also id. at 1219 n.7 (“This has been the
law in our circuit since 1995. . . . The Supreme Court
very recently had an opportunity to resolve this issue
[in Mendez] but declined to do so . . . .”).
Nevertheless, the district court did not commit
any error by declining to include the sentence in the
instruction. A party is not entitled to a jury instruction just because it correctly states a proposition of
law. It must be supported by the evidence at trial. See
Farrell v. Klein Tools, Inc., 866 F.2d 1294, 1297 (10th
Cir. 1989) (“Under federal law it is error to give an
instruction when there is no evidence to support it.
There must be more than a mere scintilla of evidence
to support an instruction. Sufficient competent evidence is required.” (citations omitted)); Higgins v.

13a
Martin Marietta Corp., 752 F.2d 492, 496 (10th Cir.
1985) (“[A] party is entitled to an instruction of [its]
theory of the case only if the theory is supported by
competent evidence. The evidence introduced at trial
must warrant the giving of the instruction.” (citations
omitted)). In this case, including the sentence omitted
by the court would have denied Wilson the qualified
immunity to which he was entitled. Before addressing
the specifics of this case, we briefly summarize the
doctrine of qualified immunity.
Qualified immunity shields public officials “from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Pauly, 874 F.3d at 1214 (internal quotation
marks omitted). When a defendant asserts a qualified-immunity defense, the plaintiff bears the burden
of showing that (1) the defendant violated a constitutional or statutory right, and (2) this right was clearly
established at the time of the defendant’s unlawful
conduct. See id. We have discretion to address these
two prongs in either order, and “[w]e may resolve a
case on the second prong alone if the plaintiff fails to
show a right was clearly established.” Gutierrez v. Cobos, 841 F.3d 895, 900 (10th Cir. 2016).
The law is clearly established for qualified-immunity purposes only if it was sufficiently clear that,
at the time of the public official’s conduct, every reasonable official would have understood that the conduct was unlawful. See District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018). To make such a showing in
our circuit, “the plaintiff must point to a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts

14a
must have found the law to be as the plaintiff maintains.” Callahan v. Unified Gov’t of Wyandotte Cty.,
806 F.3d 1022, 1027 (10th Cir. 2015) (internal quotation marks omitted). “[E]xisting precedent must have
placed the statutory or constitutional question beyond
debate.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(internal quotation marks omitted). The clarity of the
law must be viewed “in light of the specific context of
the case, not as a broad general proposition.” Pauly,
874 F.3d at 1222 (internal quotation marks omitted).
Here, qualified immunity did not completely protect Wilson from Cox’s claim. Cox was certainly entitled to an instruction on the unreasonable use of force.
The jury could have inferred from the testimony of Officer Klaus and of Ms. Kincaid that, contrary to Wilson’s testimony, Cox had not made any attempt to
drive his vehicle at Wilson when Wilson shot him, that
Cox did not pose a threat of imminent danger to Wilson after Wilson exited his vehicle, and that therefore
Wilson’s use of deadly force against Cox was unreasonable. But the jury found otherwise. And, in light of
the doctrine of qualified immunity, it would have been
contrary to law for the jury to hold Wilson liable based
on his conduct before the time of the shooting. Therefore, it would have been improper to give the jury an
instruction that would have allowed it to do so. We explain.
The sentence omitted from the instruction said:
“Defendant Don Wilson’s own conduct prior to the
shooting can be a part of your determination of reasonableness, but only if his own reckless or deliberate
conduct during the seizure unreasonably created the
need to use such force.” Aplt. App., Vol. I at 57. Cox
sought the instruction to allow him to base liability on
his claim that, even if Wilson was in imminent danger

15a
when he shot Cox, the only reason Wilson was exposed
to danger was that he unreasonably exited his police
vehicle and approached Cox’s pickup.
At trial Cox called as an expert witness a person
with excellent credentials who testified that Wilson’s
recklessness created the danger leading to the shooting. The expert opined that Wilson should not have
left his car to approach Cox because of the danger to
Wilson once he was on foot on the Interstate and in a
vulnerable position between his patrol car and Cox’s
vehicle. He said that Wilson should have remained in
his vehicle and attempted to deescalate the situation,
perhaps waiting for support from additional officers.
And he said that once Wilson stepped onto the Interstate, he should have moved to a position of safety at
the rear of his vehicle.
Perhaps it would have been safer for Wilson to remain in his vehicle. But there were other considerations at play. Cox had ignored repeated warnings from
Wilson to turn off his car’s engine. Wilson reasonably
believed that if Cox could continue to drive on the Interstate, he would present a profound danger to other
motorists. Although Cox was temporarily boxed in,
there was no reason for Wilson to believe that this situation would persist for any substantial amount of
time; Kincaid did not turn off her engine and had not
spoken with Wilson or otherwise informed him that
she intended to remain stopped in front of Cox indefinitely. If Kincaid moved forward, Cox could have continued his dangerous driving, which, according to both
Wilson and Kincaid, he appeared intent on doing. And
both Wilson and Kincaid testified that Cox was repeatedly reaching down for something, which they assumed was a firearm. If Cox was to be prevented from
further dangerous driving, the most reasonable thing

16a
for Wilson to do may have been to expose himself to
danger in order to disable Cox from driving.
More importantly, even if the jury was persuaded
by the expert’s trial testimony that Wilson had acted
unreasonably in leaving his vehicle, qualified immunity protected Wilson from liability on that score. As
Wilson frames the issue, the question on appeal is
whether there is:
a controlling case finding a Fourth Amendment violation due to the officer’s recklessly
causing the need to use deadly force, where after participating in a high speed and dangerous chase of a suspect, the officer exited his
vehicle during a temporary stop in traffic to
confront the driver with a show of deadly
force?
Aplee. Br. at 49. Cox has not presented, nor are we
aware of, any opinion by the Supreme Court or this
court, or, for that matter, any other court, holding that
an officer in similar circumstances acted unreasonably. It would have been error for the district court to
instruct the jury that it could find Wilson liable on a
ground for which he was protected by qualified immunity.
This court recently reached essentially the same
conclusion on an appeal where the issue was the same
as in this case—allegedly unreasonable police conduct
leading to the use of deadly force. In Pauly we reversed the denial of summary judgment in favor of the
officers, even though the evidence would support a
finding of the following events: Two women called 911
late one evening to report a drunk driver and then began to tailgate him. See 874 F.3d at 1203. At one point

17a
both vehicles stopped at an exit ramp and the occupants exchanged unpleasantries. See id. The driver
felt threatened and drove away (apparently without
the women following him), going the short distance to
his rural home, where he lived with his brother. See
id. The three responding officers determined “that
there was not enough evidence or probable cause to
arrest [the driver], and that no exigent circumstances
existed at the time. Nevertheless, the officers decided
to try and speak with [the driver] to get his side of the
story.” Id. at 1203–04. The officers located and then
approached the driver’s home, using their flashlights
only intermittently until they neared the front door.
See id. at 1204. The driver and his brother, fearing intruders related to the prior road-rage incident, asked
who was approaching, see id.; the officers responded
hostilely, yelling “Hey, (expletive), we got you surrounded. Come out or we’re coming in,” id. As a result,
the brothers, who had no reason to think the intruders
were police officers, armed themselves and shouted
that they had guns; one of the officers shot and killed
the driver’s brother after seeing him point a gun in the
officer’s direction. See id. at 1205. We held that the
officers’ reckless conduct—including approaching the
suspect’s home “while it was dark and raining and,
without knocking on the door, ma[king] threatening
comments about intruding into the home,” id. at
1215— understandably caused the suspect and his
brother to arm themselves, and therefore unreasonably created the need to use deadly force, see id. at
1211, 1213, 1221. We concluded that the threat “made
by the brothers, which would normally justify an officer’s use of force, was precipitated by the officers’
own” reckless actions, and that therefore the use of
deadly force was unreasonable. Id. at 1221.

18a
We nevertheless held that the officers were entitled to qualified immunity because there was no
clearly established law that such recklessness created
liability. Id. at 1223. We explained:
The statement . . . that the reasonableness inquiry includes an evaluation of an officer’s actions leading up to the use of force, is absolutely relevant in determining whether a police officer acted unreasonably in effecting a
seizure, as we illustrated above. But it cannot
alone serve as the basis for concluding that an
officer’s particular use of excessive force was
clearly established. . . . Because there is no
case close enough on point to make the unlawfulness of [the shooting officer’s] actions apparent, we conclude that [the officer] is entitled to qualified immunity.
Id. (internal quotation marks omitted).
Pauly illustrates the strength of the protection
provided by qualified immunity. Unlike Wilson’s decision to leave his vehicle to try to disable Cox’s vehicle,
the impropriety of the alleged actions by the officers
before the shooting in Pauly would be apparent to
most laypersons. Yet the Pauly officers were protected
by qualified immunity because of the absence of
clearly established law prohibiting their conduct. So
too, here.
Cox argues that Wilson is procedurally barred
from raising qualified immunity on appeal because his
preverdict Rule 50(a) qualified-immunity motion was
not followed by a postverdict Rule 50(b) motion. See
Kelley v. City of Albuquerque, 542 F. 3d 802, 817 (10th
Cir. 2008) (“[T]he precise subject matter of a party’s

19a
Rule 50(a) motion—namely, its entitlement to judgment as a matter of law—cannot be appealed unless
that motion is renewed pursuant to Rule 50(b).” (emphasis added) (internal quotation marks omitted)).
But Wilson had no occasion or reason to file a Rule
50(b) motion because the jury’s verdict was in his favor. The motion-renewal requirement of Rule 50(b)
applies only to parties dissatisfied with the verdict—
that is, appellants. Now, as an appellee, Wilson can
defend the judgment on any ground supported by the
record, at least when it is fair to do so. See Feinberg v.
Comm’r of Internal Revenue, 916 F.3d 1330, 1334
(10th Cir. 2019), cert. denied, 140 S. Ct. 49 (2019).
There is no unfairness in affirming on the ground of
qualified immunity. Wilson properly invoked qualified immunity in the district court and has fully
briefed the issue on appeal.
We also reject Cox’s apparent assertion at oral argument that qualified immunity is a separate, nonrelevant issue, and not an issue on appeal, because the
jury was not 19 presented with deciding the issue. To
begin with, the argument is untimely. “Arguments
that are raised for the first time at oral argument
come too late to merit our attention.” United States v.
DeRusse, 859 F.3d 1232, 1240 n.3 (10th Cir. 2017)
(brackets and internal quotation marks omitted).
Moreover, were we to consider this argument, it would
fail because the clearly-established-law component of
qualified immunity is not a jury issue. See Griess v.
State of Colo., 841 F.2d 1042, 1047 (10th Cir. 1988)
(“[W]hether constitutional rights allegedly violated
were clearly established for purposes of qualified immunity . . . is a purely legal issue,” and therefore “is
appropriate for resolution on appeal.” (internal quotation marks omitted)).

20a
III.

Conclusion

We AFFIRM the district court’s judgment in favor of
Defendant Wilson

21a
APPENDIX B
United States Court of Appeals
for the Tenth Circuit
Cody William Cox,
Plaintiff-Appellant-Cross-Appellee,
v.
Don Wilson,
Defendant-Appellee-Cross-Appellant.
Nos. 18-1353, 18-1376
(Filed August 19, 2020, nunc pro tunc May 22, 2020)
Appeal from the United States District Court
for the District of Colorado (D.C. No. 1:15-CV00128-WJM-NYW)
Before Hartz and Eid, Circuit Judges**
Hartz, Circuit Judge.
Plaintiff Cody Cox sued Defendant Don Wilson, a
deputy in the Clear Creek County Sheriff’s Department, under 42 U.S.C. § 1983. Cox alleged that when

* The late Honorable Monroe G. McKay, United States Senior
Circuit Judge, heard oral argument and participated in the
panel’s conference of this appeal, but passed away before its final
resolution. The practice of this court permits the remaining two
panel judges, if in agreement, to act as a quorum in resolving the
appeal. See United States v. Wiles, 106 F.3d 1516, 1516, n* (10th
Cir. 1997); 28 U.S.C. § 46(d).

22a
Wilson shot him in his vehicle while stopped on Interstate 70, Wilson violated the constitutional prohibition against the use of excessive force by law-enforcement officers. Plaintiff appeals the judgment on the
jury verdict against him. He argues that the district
court erred in failing to instruct the jury to consider
whether Wilson unreasonably created the need for the
use of force by his own reckless conduct. We have jurisdiction under 28 U.S.C. § 1291 and affirm. Although the district court incorrectly stated that the Supreme Court had recently abrogated this court’s precedents requiring such an instruction in appropriate
circumstances, the evidence in this case did not support the instruction. No law, certainly no law clearly
established at the time of the incident, suggests that
Wilson acted unreasonably up to and including the
time that he exited his vehicle and approached Cox’s
vehicle.
I.

Background
A. The Shooting

Cox was shot on January 31, 2014, after a car
chase on Interstate 70. It had been snowing so the Interstate was wet, and some parts were snow-packed
or icy. The first officer to pursue Cox was Clear Creek
County Deputy Sheriff Kevin Klaus. Although Klaus
testified about his observations during the pursuit,
the only evidence relevant to the propriety of Wilson’s
actions is what Wilson observed or what he was informed of by others. Therefore, our account of what
happened before Wilson joined the pursuit is limited
to what was broadcast on police radio channels that
Wilson heard.
The radio traffic indicated a dangerous situation.
It began as Cox’s Toyota pickup passed Exit 235 on
the interstate. The dispatcher said, “[W]e’ve got about

23a
three 9-11 calls.” Aplt. App., Vol. VII at 1566. An officer reported that Cox had “I-70 pretty-well blocked
up behind him and he’s having a hard time getting up
the road.” Id. at 1567. The officer described the vehicle
as a “Silver Tacoma with damage all over the body and
a camper shell on the back.” Id. Klaus reported that
at about mileage marker 232½, Cox “just wiped out in
the, uh, number one lane. He’s – was all over the
road.” Id. at 1568. Klaus also noted that his police vehicle did not have a siren. Id. Klaus then reported that
near Exit 232 the pickup “got stuck, but he’s trying to
get away again. I’m not going to contact until I get
some cover.” Id. at 1569. He said: “I verbally told the
party to turn off his car. I do have a good look of – at
him, and he’s taking off again. Westbound. All over
the road.” Id. An officer reported that traffic was “almost at a standstill” about 4 miles ahead. Id. Klaus
said he needed help from someone with a siren and
reported that there was “nobody in front of this guy,
but we have a lot behind me.” Id. After the other officer reported that he was at Exit 228, Klaus responded, “Uh, the way he’s driving, I doubt we’ll make
it that far.” Id. Another officer stated that he had
“spike strips” (also referred to by officers as stop
sticks) and would join the two police vehicles already
at Exit 228. Id. at 1570. Klaus then reported that Cox
was driving 60 miles per hour, then 70, and then 80
at mileage marker 230½.
After an officer reported that westbound traffic
was stopped about a mile and a half ahead, Klaus
said, “[W]e just caught up with this traffic. He is not
going to stop.” Id. Klaus continued, “[W]e’re going to
have to, uh, take some physical action on this vehicle.
This guy has got to be very drunk, and he is not stopping.” Id. at 1571. Shortly after that, Klaus reported,
“We’re in bumper-to-bumper traffic now at the 229½.

24a
He is not stopping. He’s just showing me a peace sign.”
Id. Another officer informed the others that he was at
the 228 offramp with spike strips.
About that time, Wilson, whose vehicle had a siren, had caught up with Cox and taken over from
Klaus as leader of the pursuit. For the next mile, traffic became heavily congested, moving slowly in a stopand-go fashion. The pursuit proceeded at speeds between 5 and 15 miles per hour. Wilson observed Cox
continue to drive dangerously. Each time Cox was momentarily stopped by the traffic, he would wait for an
opening and then accelerate through any gaps in the
cars, losing traction and fishtailing wildly nearly a
dozen times and coming very close to striking nearby
vehicles. He refused to pull over in response to Wilson’s lights and sirens or Wilson’s repeated orders
over his loudspeaker that Cox stop his vehicle. Wilson
believed that Cox was not going to stop.
Wilson was able to pull along the right side of
Cox’s vehicle, which was in the lefthand lane about
five feet from the guardrail, while traffic continued to
move very slowly in a stop-and-go fashion. Wilson had
his window down and motioned for Cox to roll down
his window, which Cox did. But Cox continued to ignore Wilson’s repeated orders to turn off his engine.
On several occasions Wilson observed Cox drop his
right hand down to his right hip; given the circumstances, Wilson assumed that Cox was reaching for a
firearm. Cox kept driving forward when possible, rolling up a few feet each time the traffic moved forward.
Wilson believed that Cox was striking the rear
bumper of the car in front of him, driven by Sarah Kincaid, and pushing her car forward each time that he
pulled ahead. But Wilson testified that he was mistaken on this point; he said that his perceptions at

25a
that moment were impaired because he was concentrating on giving Cox instructions and determining
whether Cox had a weapon.
Finally, Kincaid fully stopped her car, requiring
Cox to stop. Kincaid stopped because she thought that
Wilson wanted her to do so. But Wilson and Kincaid
had not communicated at any point and Kincaid kept
the engine running; so Wilson had no way of knowing
that Kincaid was intentionally blocking Cox and
would continue to do so even as traffic moved forward
in front of her.
Klaus stopped his vehicle about 10 feet behind
Cox. By this point Wilson had drawn his firearm and
pointed it at Cox, again ordering Cox to turn off his
engine. While Cox was boxed in, Wilson believed he
had a brief window of time to get inside Cox’s car and
take the keys out of the ignition. He decided that
prompt action was necessary because he believed that
the next stretch of highway posed increasing dangers
for the chase (for example, there was a crossover area
a mile ahead where Cox could have driven into oncoming traffic), and that Cox could, in the slow-moving
traffic, avoid the stop sticks that police had laid out at
the next exit. Based on the radio transmissions, Wilson thought that officers providing support for the
chase about a half mile to a mile down the road were
not coming to assist him.
Wilson said that when he exited his vehicle, it was
a car length ahead of Cox in the lane to the right. With
his firearm drawn he moved toward Cox, again telling
Cox to turn off his engine. Almost immediately, he
shot Cox through the open passenger window, striking Cox in the neck. The shooting incident, from the
time Cox’s vehicle came to a complete stop to the time

26a
that Wilson shot Cox, probably took about a minute.1
The shot to the neck rendered Cox quadriplegic.
There was no dispute at trial regarding Wilson’s
knowledge of the police radio traffic before he took
over the lead of the pursuit; nor was there any dispute
regarding the stop-and-go nature of the traffic once he
took the lead, Cox’s dangerous driving, or Cox’s refusal to comply with Wilson’s repeated orders for Cox
to turn off his engine. But the eyewitness trial testimony about the moments immediately preceding the
shooting was not entirely consistent. Wilson claimed
that before he stepped from his vehicle onto the highway, he witnessed Cox roll his car forward and backward twice. When he stepped onto the highway, Cox
had backed up to a point completely behind his patrol
car. He said that he shot Cox because Cox attempted
to drive forward and to the right, toward his patrol
car, in a manner that caused him to believe that he
was going to be crushed and perhaps killed between
the two vehicles. Klaus, however, testified that Wilson
stopped his patrol car right next to Cox’s car, and that
Cox moved his car only once (a foot backward and then
a foot forward) after coming to a complete stop behind
Kincaid. Kincaid testified that Wilson had not fully
exited his vehicle when he shot Cox, and Cox had not
moved his vehicle after stopping behind Kincaid with
Wilson to his right.
The duration of the incident, from the time that Cox’s car came
to a complete stop to the time of the shooting, is somewhat uncertain. Klaus testified that he watched Cox’s stopped car for less
than a minute before exiting his car, and that Wilson shot Cox
about four seconds later. Wilson testified based on the radio
transmissions that the incident took about one minute and 15
seconds. Kincaid testified that the incident took “seven and a half
minutes,” Aplt. App., Vol. I at 181, but admitted that her perception was affected by the stress of the moment.
1

27a
Cox testified that he had no memory of the car
chase or the shooting incident except that he recalled
a silhouette of a person who came up to his window
while he was stopped in traffic, he heard some words,
and he hit the vehicle in front of him before losing consciousness.
B. Procedural History
Cox filed suit in the United States District Court
for the District of Colorado asserting a single claim
under 42 U.S.C. § 1983: namely, that his shooting constituted the use of excessive force in violation of the
Fourth Amendment’s protection against unreasonable seizure. Wilson asserted the defense of qualified
immunity.
There have been two jury trials on Cox’s claim.
The first jury returned a verdict in favor of Wilson, but
the district court vacated the judgment because of
misconduct at trial by defense counsel (who has since
been replaced) and ordered a new trial. After Cox
rested his case in the second trial, Wilson moved under Fed. R. Civ. P. Rule 50(a) for a judgment as a matter of law on his qualified-immunity defense. He renewed this motion at the close of evidence, but the
court denied the motion. The second jury also rendered a verdict in favor of Wilson.
Cox raises only one issue on appeal. He contends
that the district court improperly failed to instruct the
jury that it could consider Wilson’s reckless conduct
before the shooting in determining whether the shooting violated the Fourth Amendment. In his response
to Cox’s appeal and in support of his own cross-appeal,
Wilson argues that the district court committed several errors during the trial. But because we affirm the

28a
judgment in Wilson’s favor, we need not address those
matters.
II.

Discussion

In an excessive-force case, as in other Fourth
Amendment seizure cases, a plaintiff must prove that
the officer’s actions were “objectively unreasonable,”
taking into account the “totality of the circumstances.”
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255, 1259–60 (10th Cir. 2008) (internal quotation
marks omitted). Cox argues that the district court
erred in failing to instruct the jury that in determining the reasonableness of Wilson’s use of force, it could
consider whether Wilson’s own reckless conduct unreasonably created the need to use such force.
According to Cox, the district court’s mistake was
in changing the unreasonable-force jury instruction
from what the court had used at the first trial. The
court’s instructions were almost identical to those it
had previously given regarding what Cox needed to
prove to establish his claim against Wilson. In both
trials the court told the juries that the burden was on
Cox “to establish by a preponderance of the evidence
each of the following elements” of his excessive-force
claim: “First: [Wilson] deprived [Cox] of his federal
Constitutional right not to be subjected to unreasonable force while being stopped; Second: [Wilson] acted
under the color of state law; and Third: [Wilson’s] acts
were the proximate cause of damages sustained by
[Cox].” Aplt. App., Vol. VII at 1595. The court then instructed the juries on the “Factors To Consider When
Determining Whether Plaintiff Has Proven The Elements Of His Claim.” Id. at 1596. It told the juries
that they could consider whether Cox had proved at
least one of the following (each of 9 which would have

29a
sufficed to establish a violation of his Fourth Amendment rights): (1) “that deadly force was not necessary
to prevent [Cox] from escaping”; (2) “that [Wilson] did
not have probable cause to believe that [Cox] posed a
significant threat of serious physical injury to [Wilson] or others”; or (3) “that it would have been feasible
for [Wilson] to give [Cox] a warning before using
deadly force, but [Wilson] did not do so.” Id. at 1596–
97. And the court told the juries that they should “consider all the relevant facts and circumstances [Wilson]
reasonably believed to be true at the time of the encounter,” and that the inquiry “is always whether,
from the perspective of a reasonable officer on the
scene, the totality of the circumstances justified the
use of force at the time of the seizure.” Id. at 1597.
But the court did make one change to the factorsto-consider instruction given at the first trial, and that
is the basis of Cox’s appeal. The second-trial instruction excluded one sentence regarding the jury’s reasonableness inquiry. We set forth in regular type the
pertinent paragraph from the instructions at the second trial, and italicize the sentence that was included
at the first trial but not at the second:
The reasonableness of Defendant’s acts must
be judged from the perspective of a reasonable
officer on the scene at the time of the seizure,
that is, the shooting. One of the factors you
should consider is whether Defendant Don
Wilson was in danger at the time that he used
force. Defendant Don Wilson’s own conduct
prior to the shooting can be a part of your determination of reasonableness, but only if his
own reckless or deliberate conduct during the
seizure unreasonably created the need to use
such force. The concept of reasonableness

30a
makes allowance for the fact that police officers are often forced to make split-second judgments in circumstances that are sometimes
tense, uncertain, and rapidly evolving, about
the amount of force that is necessary in a particular situation.
Aplt. App., Vol. I at 57 (italics), VII at 1597 (regular type). Cox objected to the instruction but was overruled. The court explained that it thought the deleted
language was legally incorrect and that Cox’s contention that Wilson’s conduct before the shooting was
reckless was unlikely to overcome qualified immunity.
See Aplt. App., Vol. VII at 1436 (“It’s my view that
some subsequent decisions since the first trial call[]
into question the continuing viability of that statement and that would be, in my view, the thinnest
grounds that the plaintiff would have on the qualified
immunity issue.”).
We ordinarily review a lower court’s refusal to
give a particular instruction for abuse of discretion.
See Morrison Knudsen Corp. v. Fireman’s Fund Ins.
Co., 175 F.3d 1221, 1231 (10th Cir. 1999). “That deferential review is superseded, however, by this court’s
de novo review of the instructions given to determine
whether, in the absence of the refused instruction,
they misstated the applicable law.” Id.; see Burke v.
Regalado, 935 F.3d 960, 1009 (10th Cir. 2019) (“We
review de novo whether, as a whole, the district
court’s jury instructions correctly stated the governing law and provided the jury with an ample understanding of the issues and applicable standards.” (internal quotation marks omitted)). Wilson argues that
we should review the denial of the requested instruction for abuse of discretion, while Cox argues that our

31a
review is de novo. But we need not resolve that dispute because on de novo review we hold that the instruction would have been improper in light of the evidence.
There is some Supreme Court authority supporting the district court’s view of the law. In City &
County of San Francisco, California v. Sheehan, the
Court stated that a plaintiff could not “establish a
Fourth Amendment violation based merely on bad
tactics that result[ed] in a deadly confrontation that
could have been avoided.” 135 S. Ct. 1765, 1777 (2015)
(internal quotation marks omitted). “[S]o long as a
reasonable officer could have believed that his conduct
was justified, a plaintiff cannot avoid summary judgment by simply producing an expert’s report that an
officer’s conduct leading up to a deadly confrontation
was imprudent, inappropriate, or even reckless.” Id.
(original brackets and internal quotation marks omitted).
Two years later, County of Los Angeles, California
v. Mendez rejected the Ninth Circuit’s “provocation”
rule, which had “permit[ted] an excessive force claim
under the Fourth Amendment where an officer intentionally or recklessly provokes a violent confrontation,
if the provocation is an independent Fourth Amendment violation.” 137 S. Ct. 1539, 1546 (2017) (internal
quotation marks omitted). “The rule’s fundamental
flaw,” as the unanimous Court explained, was that it
“use[d] another constitutional violation to manufacture an excessive force claim where one would not otherwise exist.” Id. The rule went beyond the “operative
question in excessive force cases,”—“whether the totality of the circumstances justifie[d] a particular sort
of search or seizure,” id. (internal quotation marks
omitted)—and instead “instruct[ed] courts to look

32a
back in time to see if there was a different Fourth
Amendment violation that [was] somehow tied to the
eventual use of force,” id. at 1547.
But Mendez made clear that it was not deciding
the validity of the proposition of law stated in the sentence omitted from the instruction by the district
court in this case. A footnote to the opinion states that
the Court was declining to address the view that assessing the reasonableness of the use of force requires
“taking into account unreasonable police conduct
prior to the use of force that foreseeably created the
need to use it.” Id. at 1547 n*. And after both Sheehan
and Mendez we held in Pauly v. White that “[t]he reasonableness of the use of force depends not only on
whether the officers were in danger at the precise moment that they used force, but also on whether the officers’ own reckless or deliberate conduct during the
seizure unreasonably created the need to use such
force.” 874 F.3d 1197, 1219 (10th Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018) (internal quotation marks
omitted); see also id. at 1219 n.7 (“This has been the
law in our circuit since 1995. . . . The Supreme Court
very recently had an opportunity to resolve this issue
[in Mendez] but declined to do so . . . .”).
Nevertheless, the district court did not commit
any error by declining to include the sentence in the
instruction. A party is not entitled to a jury instruction just because it correctly states a proposition of
law. It must be supported by the evidence at trial. See
Farrell v. Klein Tools, Inc., 866 F.2d 1294, 1297 (10th
Cir. 1989) (“Under federal law it is error to give an
instruction when there is no evidence to support it.
There must be more than a mere scintilla of evidence
to support an instruction. Sufficient competent evidence is required.” (citations omitted)); Higgins v.

33a
Martin Marietta Corp., 752 F.2d 492, 496 (10th Cir.
1985) (“[A] party is entitled to an instruction of [its]
theory of the case only if the theory is supported by
competent evidence. The evidence introduced at trial
must warrant the giving of the instruction.” (citations
omitted)). In this case, including the sentence omitted
by the court would have denied Wilson the qualified
immunity to which he was entitled. Before addressing
the specifics of this case, we briefly summarize the
doctrine of qualified immunity.
Qualified immunity shields public officials “from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Pauly, 874 F.3d at 1214 (internal quotation
marks omitted). When a defendant asserts a qualified-immunity defense, the plaintiff bears the burden
of showing that (1) the defendant violated a constitutional or statutory right, and (2) this right was clearly
established at the time of the defendant’s unlawful
conduct. See id. We have discretion to address these
two prongs in either order, and “[w]e may resolve a
case on the second prong alone if the plaintiff fails to
show a right was clearly established.” Gutierrez v. Cobos, 841 F.3d 895, 900 (10th Cir. 2016).
The law is clearly established for qualified-immunity purposes only if it was sufficiently clear that,
at the time of the public official’s conduct, every reasonable official would have understood that the conduct was unlawful. See District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018). To make such a showing in
our circuit, “the plaintiff must point to a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts

34a
must have found the law to be as the plaintiff maintains.” Callahan v. Unified Gov’t of Wyandotte Cty.,
806 F.3d 1022, 1027 (10th Cir. 2015) (internal quotation marks omitted). “[E]xisting precedent must have
placed the statutory or constitutional question beyond
debate.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(internal quotation marks omitted). The clarity of the
law must be viewed “in light of the specific context of
the case, not as a broad general proposition.” Pauly,
874 F.3d at 1222 (internal quotation marks omitted).
Here, qualified immunity did not completely protect Wilson from Cox’s claim. Cox was certainly entitled to an instruction on the unreasonable use of force.
The jury could have inferred from the testimony of Officer Klaus and of Ms. Kincaid that, contrary to Wilson’s testimony, Cox had not made any attempt to
drive his vehicle at Wilson when Wilson shot him, that
Cox did not pose a threat of imminent danger to Wilson after Wilson exited his vehicle, and that therefore
Wilson’s use of deadly force against Cox was unreasonable. But the jury found otherwise. And, in light of
the doctrine of qualified immunity, it would have been
contrary to law for the jury to hold Wilson liable based
on his conduct before the time of the shooting. Therefore, it would have been improper to give the jury an
instruction that would have allowed it to do so. We explain.
The sentence omitted from the instruction said:
“Defendant Don Wilson’s own conduct prior to the
shooting can be a part of your determination of reasonableness, but only if his own reckless or deliberate
conduct during the seizure unreasonably created the
need to use such force.” Aplt. App., Vol. I at 57. Cox
sought the instruction to allow him to base liability on
his claim that, even if Wilson was in imminent danger

35a
when he shot Cox, the only reason Wilson was exposed
to danger was that he unreasonably exited his police
vehicle and approached Cox’s pickup.
At trial Cox called as an expert witness a person
with excellent credentials who testified that Wilson’s
recklessness created the danger leading to the shooting. The expert opined that Wilson should not have
left his car to approach Cox because of the danger to
Wilson once he was on foot on the Interstate and in a
vulnerable position between his patrol car and Cox’s
vehicle. He said that Wilson should have remained in
his vehicle and attempted to deescalate the situation,
perhaps waiting for support from additional officers.
And he said that once Wilson stepped onto the Interstate, he should have moved to a position of safety at
the rear of his vehicle.
Perhaps it would have been safer for Wilson to remain in his vehicle. But there were other considerations at play. Cox had ignored repeated warnings from
Wilson to turn off his car’s engine. Wilson reasonably
believed that if Cox could continue to drive on the Interstate, he would present a profound danger to other
motorists. Although Cox was temporarily boxed in,
there was no reason for Wilson to believe that this situation would persist for any substantial amount of
time; Kincaid did not turn off her engine and had not
spoken with Wilson or otherwise informed him that
she intended to remain stopped in front of Cox indefinitely. If Kincaid moved forward, Cox could have continued his dangerous driving, which, according to both
Wilson and Kincaid, he appeared intent on doing. And
both Wilson and Kincaid testified that Cox was repeatedly reaching down for something, which they assumed was a firearm. If Cox was to be prevented from
further dangerous driving, the most reasonable thing

36a
for Wilson to do may have been to expose himself to
danger in order to disable Cox from driving.
More importantly, even if the jury was persuaded
by the expert’s trial testimony that Wilson had acted
unreasonably in leaving his vehicle, qualified immunity protected Wilson from liability on that score. As
Wilson frames the issue, the question on appeal is
whether there is:
a controlling case finding a Fourth Amendment violation due to the officer’s recklessly
causing the need to use deadly force, where after participating in a high speed and dangerous chase of a suspect, the officer exited his
vehicle during a temporary stop in traffic to
confront the driver with a show of deadly
force?
Aplee. Br. at 49. Cox has not presented, nor are we
aware of, any opinion by the Supreme Court or this
court, or, for that matter, any other court, holding that
an officer in similar circumstances acted unreasonably. It would have been error for the district court to
instruct the jury that it could find Wilson liable on a
ground for which he was protected by qualified immunity.
A recent decision of this court provides a compelling illustration of the scope of qualified immunity
This court recently reached essentially the same conclusion on an appeal where the issue was the same as
in this case—allegedly unreasonable police conduct
leading to the use of deadly force. In Pauly we reversed the denial of summary judgment in favor of the
officers, even though the evidence would support a
finding of the following events: Two women called 911

37a
late one evening to report a drunk driver and then began to tailgate him. See 874 F.3d at 1203. At one point
both vehicles stopped at an exit ramp and the occupants exchanged unpleasantries. See id. The driver
felt threatened and drove away (apparently without
the women following him), going the short distance to
his rural home, where he lived with his brother. See
id. The three responding officers determined “that
there was not enough evidence or probable cause to
arrest [the driver], and that no exigent circumstances
existed at the time. Nevertheless, the officers decided
to try and speak with [the driver] to get his side of the
story.” Id. at 1203–04. The officers located and then
approached the driver’s home, using their flashlights
only intermittently until they neared the front door.
See id. at 1204. The driver and his brother, fearing intruders related to the prior road-rage incident, asked
who was approaching, see id.; the officers responded
hostilely, yelling “Hey, (expletive), we got you surrounded. Come out or we’re coming in,” id. As a result,
the brothers, who had no reason to think the intruders
were police officers, armed themselves and shouted
that they had guns; one of the officers shot and killed
the driver’s brother after seeing him point a gun in the
officer’s direction. See id. at 1205. We held that the
officers’ reckless conduct—including approaching the
suspect’s home “while it was dark and raining and,
without knocking on the door, ma[king] threatening
comments about intruding into the home,” id. at
1215— understandably caused the suspect and his
brother to arm themselves, and therefore unreasonably created the need to use deadly force, see id. at
1211, 1213, 1221. We concluded that the threat “made
by the brothers, which would normally justify an officer’s use of force, was precipitated by the officers’

38a
own” reckless actions, and that therefore the use of
deadly force was unreasonable. Id. at 1221.
We nevertheless held that the officers were entitled to qualified immunity because there was no
clearly established law that such recklessness created
liability. Id. at 1223. We explained:
The statement . . . that the reasonableness inquiry includes an evaluation of an officer’s actions leading up to the use of force, is absolutely relevant in determining whether a police officer acted unreasonably in effecting a
seizure, as we illustrated above. But it cannot
alone serve as the basis for concluding that an
officer’s particular use of excessive force was
clearly established. . . . Because there is no
case close enough on point to make the unlawfulness of [the shooting officer’s] actions apparent, we conclude that [the officer] is entitled to qualified immunity.
Id. (internal quotation marks omitted).
Pauly illustrates the strength of the protection
provided by qualified immunity. Unlike Wilson’s decision to leave his vehicle to try to disable Cox’s vehicle,
the impropriety of the alleged actions by the officers
before the shooting in Pauly would be apparent to
most laypersons. Yet the Pauly officers were protected
by qualified immunity because of the absence of
clearly established law prohibiting their conduct. If
qualified immunity protects the officers in Pauly
against the claim of unreasonably creating a dangerous situation that led to the use of deadly force, surely
Wilson is similarly protected. So too, here.
Cox argues that Wilson is procedurally barred
from raising qualified immunity on appeal because his

39a
preverdict Rule 50(a) qualified-immunity motion was
not followed by a postverdict Rule 50(b) motion. See
Kelley v. City of Albuquerque, 542 F. 3d 802, 817 (10th
Cir. 2008) (“[T]he precise subject matter of a party’s
Rule 50(a) motion—namely, its entitlement to judgment as a matter of law—cannot be appealed unless
that motion is renewed pursuant to Rule 50(b).” (emphasis added) (internal quotation marks omitted)).
But Wilson had no occasion or reason to file a Rule
50(b) motion because the jury’s verdict was in his favor. The motion-renewal requirement of Rule 50(b)
applies only to parties dissatisfied with the verdict—
that is, appellants. Now, as an appellee, Wilson can
defend the judgment on any ground supported by the
record, at least when it is fair to do so. See Feinberg v.
Comm’r of Internal Revenue, 916 F.3d 1330, 1334
(10th Cir. 2019), cert. denied, 140 S. Ct. 49 (2019).
There is no unfairness in affirming on the ground of
qualified immunity. Wilson properly invoked qualified immunity in the district court and has fully
briefed the issue on appeal.
We also reject Cox’s apparent assertion at oral argument that qualified immunity is a separate, nonrelevant issue, and not an issue on appeal, because the
jury was not 19 presented with deciding the issue. To
begin with, the argument is untimely. “Arguments
that are raised for the first time at oral argument
come too late to merit our attention.” United States v.
DeRusse, 859 F.3d 1232, 1240 n.3 (10th Cir. 2017)
(brackets and internal quotation marks omitted).
Moreover, were we to consider this argument, it would
fail because the clearly-established-law component of
qualified immunity is not a jury issue. See Griess v.
State of Colo., 841 F.2d 1042, 1047 (10th Cir. 1988)
(“[W]hether constitutional rights allegedly violated

40a
were clearly established for purposes of qualified immunity . . . is a purely legal issue,” and therefore “is
appropriate for resolution on appeal.” (internal quotation marks omitted)).
III.

Conclusion

We AFFIRM the district court’s judgment in favor of
Defendant Wilson

